2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

Legal Briefs E-Mail Address:

Est.1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-871

RAHEEM CHABEZZ JOHNSON, PETITIONER,
v.
JEFFREY KISER, WARDEN
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 5729 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 24th day of April, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Lheoo Ondiow-h, Ghly

Affiant

    

GENERAL MOTARY-State of Nebraska
RENEE J. GOSS

My Comm. Exp. September 5, 2023,

 

 

Notary Public
